                 U.S. Department of Agriculture
                  Office of Inspector General
                      Great Plains Region
                          Audit Report



                          Farm Service Agency/
                     Commodity Credit Corporation
                  Security Over Information Technology
                               Resources




                                  Report No.
                                  03099-47-KC
                                  October 2001
September 2001
                UNITED STATES DEPARTMENT OF AGRICULTURE

                                OFFICE OF INSPECTOR GENERAL


                                    Washington D.C. 20250




DATE:        October 31, 2001

REPLY TO
ATTN OF:     03099-47-KC

SUBJECT:     Farm Service Agency/Commodity Credit Corporation - Security Over
             Information Technology Resources

TO:          James R. Little
             Administrator
             Farm Service Agency

ATTN:        T. Mike McCann
             Director
             Operations Review and Analysis Staff


This report represents the results of the subject audit. The written response, dated
September 28, 2001, has been incorporated into the Findings and Recommendations
section of the report. The text of the response is attached as exhibit A. The response and
our comments are presented in the Findings and Recommendations section of the report
and explain actions and/or information necessary to achieve management decisions on
Recommendations Nos. 2, 4, 5, 6, 7, 9, 10, 11, and 12. We have accepted the
management decision for Recommendations Nos. 1, 3, and 8.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing corrective actions taken or planned and the date when final action is
anticipated. Please note that the regulation requires management decisions to be reached
on all findings and recommendations within 6 months from the date of report issuance.
Follow your internal agency procedures in forwarding final action correspondence to the
Office of the Chief Financial Officer for those recommendations where management
decision has been reached.

We appreciate the assistance you and your staff provided to us during our review.


/s/

RICHARD D. LONG
Assistant Inspector General
  for Audit
                      EXECUTIVE SUMMARY
                      FARM SERVICE AGENCY/
                 COMMODITY CREDIT CORPORATION
        SECURITY OVER INFORMATION TECHNOLOGY RESOURCES

                          REPORT NO. 03099-47-KC



                                   The main objectives of our audit were to (1)
     RESULTS IN BRIEF              assess the threat of penetration of Farm
                                   Service Agency (FSA)/Commodity Credit
                                   Corporation (CCC) payment and/or data
         systems, (2) determine the adequacy of the security over the Local and
         Wide Area Networks (LAN/WAN), and (3) assess FSA/CCC
         management’s involvement in Information Technology (IT) security.

          Based upon our reviews at Washington, D.C., Kansas City, Missouri, and
          five other field sites, we concluded that FSA management needed to
          increase their involvement in computer security to minimize the threat of
          penetration of payment and data systems. We found that an FSA
          computer had been used to access prohibited Internet websites. Further
          research disclosed that the user had been the supervisor of a wiring
          contractor team that had been left unattended in the office after regular
          working hours. At another site, the systems administrator/security officer
          acknowledged it was common practice to share logon identification
          numbers (ID’s) with visitors rather than create restricted access guest ID’s.
           At this same site, we found an extra systems administrator (unlimited
          access) logon that was known to the security officer but could not be
          explained. We found that some sites relied primarily on a single individual
          for systems administration and security.          These sites were more
          susceptible to service disruption if something were to happen to these
          employees.

          We also found physical security weaknesses at most sites. Computer
          servers and related supplies were not always located behind lockable
          doors. However, when they were, the doors remained unlocked and most
          personnel had access. Even in a facility considered by the Agency to be
          secure, we noted weaknesses. At this facility, our review of access logs
          disclosed that 112 personnel, outside of the responsible Division, had
          physical access to the server room. Further research disclosed that a
          Division separate from the operational Division controlled access authority.

USDA/OIG-A/03099-47-KC                                                          Page i
            We found that some of the more sophisticated tools for protecting
            computer networks were not fully utilized. Our scans of 121 network
            components disclosed a total of 252 high and medium-risk vulnerabilities
            that could make FSA systems subject to attack. They ranged from failure
            to change default settings to a large number of unused logons whose
            associated passwords were set to never expire. The scan results were
            shared with FSA officials as the scans were completed. Where feasible,
            FSA officials took immediate corrective actions.

            Simple tools such as workstation locking were not always used and
            controls were not adequate to ensure that user accounts were deleted
            when personnel left FSA. Additionally, we noted that FSA had not taken
            adequate actions to ensure that employees were not using Government
            computer resources to visit prohibited Internet websites.

            System security plans were not always used as a tool to help improve
            security. Associated risk assessments were not completed at the required
            intervals and security plans did not provide a management structure
            indicating system responsibilities. In addition, contingency planning was
            treated more as an annual requirement than an opportunity to test
            emergency planning for service continuity. We also found that plans were
            not always updated to reflect significant changes, nor were they tested on
            an annual basis.

                                     We recommended that FSA take immediate
  KEY RECOMMENDATIONS                action to eliminate the high and medium
                                     vulnerabilities identified by the scans,
                                     implement a policy of regular scans with
         corrective action, and remove all unnecessary accounts from networks.
         We further recommended that FSA issue one or more Information
         Resource Management (IRM) Notices that reminded personnel of their
         responsibilities to protect sensitive program data and require system
         administrators to perform an immediate reconciliation of logon ID’s and
         system users to identify and delete any obsolete ID’s.          We also
         recommended that FSA review and strengthen their physical security,
         where feasible. Additionally, we recommended that FSA implement a
         procedure allowing the security staff to immediately report inappropriate
         systems usage to responsible managers. We also recommended that, in
         conjunction with the implementation of computer system upgrades, FSA
         develop a set of guidelines that will provide for additional oversight in
         those locations where a lack of resources limits the potential for
         segregation of duties.



USDA/OIG-A/03099-47-KC                                                         Page ii
                                   In its response dated, September 28,
    AGENCY RESPONSE                2001 (see exhibit A), FSA concurred with the
                                   Findings and Recommendations and stated
                                   that actions had been taken or were being
        planned to address each of the weaknesses cited in the report.

                                  We concur with the actions taken or proposed
        OIG POSITION              by FSA on the recommendations and have
                                  reached      management       decision    on
                                  Recommendation Nos. 1, 3, and 8. In order to
          reach management decision for the remaining recommendations, we will
          need to be provided timeframes for accomplishing the agreed upon
          actions.




USDA/OIG-A/03099-47-KC                                                  Page iii
                                      TABLE OF CONTENTS

EXECUTIVE SUMMARY ................................................................................................i
   RESULTS IN BRIEF....................................................................................................i
   KEY RECOMMENDATIONS ......................................................................................ii
   AGENCY RESPONSE ..............................................................................................iii
   OIG POSITION..........................................................................................................iii
TABLE OF CONTENTS................................................................................................iv
INTRODUCTION............................................................................................................1
   BACKGROUND .........................................................................................................1
   OBJECTIVES .............................................................................................................2
   SCOPE .......................................................................................................................2
   METHODOLOGY .......................................................................................................2
FINDINGS AND RECOMMENDATIONS .......................................................................4
   CHAPTER 1 ...............................................................................................................4
   ACCESS CONTROLS NEED IMPROVEMENT .........................................................4
   FINDING NO. 1 ..........................................................................................................5
   RECOMMENDATION NO. 1 ......................................................................................7
   RECOMMENDATION NO. 2 ......................................................................................7
   RECOMMENDATION NO. 3 ......................................................................................7
   FINDING NO. 2 ..........................................................................................................8
   RECOMMENDATION NO. 4 ....................................................................................10
   FINDING NO. 3 ........................................................................................................11
   RECOMMENDATION NO. 5 ....................................................................................12
   FINDING NO. 4 ........................................................................................................12
   RECOMMENDATION NO. 6 ....................................................................................13
   CHAPTER 2 .............................................................................................................15
   GENERAL CONTROLS COULD BE MORE EFFECTIVE .......................................15
   FINDING NO. 5 ........................................................................................................15


USDA/OIG-A/03099-47-KC                                                                                                 Page iv
   RECOMMENDATION NO. 7 ....................................................................................16
   FINDING NO. 6 ........................................................................................................16
   RECOMMENDATION NO. 8 ....................................................................................17
   CHAPTER 3 .............................................................................................................18
   INADEQUATE SEGREGATION OF DUTIES NOT COMPENSATED FOR BY
   SUPERVISORY REVIEW.........................................................................................18
   FINDING NO. 7 ........................................................................................................18
   RECOMMENDATION NO. 9 ....................................................................................19
   CHAPTER 4 .............................................................................................................20
   DISASTER RECOVERY PLANS WERE NOT CURRENT.......................................20
   FINDING NO. 8 ........................................................................................................20
   RECOMMENDATION NO. 10 ..................................................................................21
   RECOMMENDATION NO. 11 ..................................................................................21
   RECOMMENDATION NO. 12 ..................................................................................22
GENERAL COMMENTS..............................................................................................23
   EXHIBIT A – AUDITEE RESPONSE TO DRAFT REPORT.....................................24
ABBREVIATIONS........................................................................................................33




USDA/OIG-A/03099-47-KC                                                                                             Page v
                            INTRODUCTION

                                       The CCC is a Government owned corporation
       BACKGROUND                      created in 1933 to stabilize, support, and
                                       protect farm income and prices; to help
                                       maintain balanced and adequate supplies of
         agricultural commodities, including products, foods, feeds and fibers; and
         to help in the orderly distribution of these commodities. Management of
         the CCC is vested in a board of directors, subject to the general
         supervision and direction of the Secretary of Agriculture. The activities of
         the CCC are carried out mainly by the personnel and through the facilities
         of the FSA and the State and county committees. There are 50 FSA State
         offices and about 2,150 county offices. Additionally, the FSA maintains
         field office personnel in Kansas City and St. Louis, Missouri, and Salt Lake
         City, Utah. FSA personnel total about 15,000. Utilizing these personnel,
         FSA and CCC expended funds totaling over $29 billion for fiscal year (FY)
         2000.

          Expenses for the acquisition, operation, maintenance, improvement, or
          disposition of property, including IT resources which the CCC owns, have
          been treated as program expenses. Beginning in FY 1992, the FSA
          started receiving a direct appropriation for these types of operating
          expenses. Section 161 of the Federal Agriculture Improvement and
          Reform Act of 1996 placed limits upon the amount of CCC funds that
          could be used for operating expenses. Therefore, the FSA has been
          limited in the amount of directly appropriated or CCC program funds that
          might be spent for the acquisition of IT resources.

          Since 1985, all State and county FSA offices have used automated
          systems to support their day-to-day program operations. Replacements of
          the FSA legacy systems are now being accomplished under the United
          States Department of Agriculture Service Center Initiative. Phase 1 of the
          Service Center Shared Information System was initiated in 1998 and
          included the purchase of desktop and laptop computers to replace
          computers that were not Y2K compliant and to implement and initiate
          Common Computing Environment capability. Another phase of the
          Service Center Initiative is the LAN/WAN/VOICE project begun in FY
          1996. This project will result in integrated telephone systems; LAN/WAN
          needed for sharing data, technology, and information; an integrated E-mail
          system; and optimization of phone and data circuits to support the



USDA/OIG-A/03099-47-KC                                                       Page 1
                   combined traffic load at least cost. Various laws have emphasized the
                   need to protect agencies’ sensitive and critical data, including the Privacy
                   Act of 1974, the Computer Security Act of 1987, and the Paperwork
                   Reduction Act of 1995. Departmental responsibilities were recently
                   reemphasized in the Clinger-Cohen Act of 1996 and Presidential Decision
                   Directive 63, “Policy on Critical Infrastructure Protection.” Additionally, the
                   Government Information Security Reform Act was enacted on October 30,
                   2000. This act codified the existing requirements of the Office of
                   Management and Budget’s (OMB) Circular A-130, Appendix III, Security of
                   Federal Automated Information Resources. Computer security at USDA is
                   addressed in Departmental Manual (DM) 3140-1, Management ADP
                   Security Manual, and various Departmental Regulations (DR).1
                   Additionally, the FSA has issued certain security guidelines in a series of
                   IRM Handbooks2.

                                        The audit objectives were to (1) assess the
               OBJECTIVES               threat of penetration of FSA/CCC payment
                                        and/or data systems, (2) determine the
                                        adequacy of the security over the LAN/WAN,
                and (3) assess FSA/CCC management’s involvement in IT security.

                                              To assess FSA’s IT security, we tested
                    SCOPE                     computer systems in the Washington D.C.
                                              headquarters, in Kansas City, Missouri, and
                                              five field sites. The field sites were selected to
                   represent a broad spectrum of FSA operations; including support sites that
                   did not disburse payments directly to producers, one site that maintained a
                   county level website, and one site that was part of the Business Process
                   Reengineering/Common Computing Environment pilot test. This test site
                   represents the type of operation that FSA is moving towards. Field visits
                   were made between August and December 2000.

                   The audit was conducted in accordance with Government Auditing
                   Standards.

                                           To accomplish our audit objectives, we
            METHODOLOGY                    interviewed responsible security officials at
                                           each site to determine their security
                                           procedures and evaluated the security
              structure to determine if it maintained an adequate segregation of duties

1
  DR 3130- 2, Microcomputer Policy, 3140-1, USDA Information Systems Security Policy, 3140-2, USDA Internet Security Policy,
and 3300-1, Telecommunications & Internet Services and Use.
2
  2-IRM, Computer Operations, 4-IRM, FTS Mail Management, 5-IRM, Telecommunications Management, and 6-IRM, Guidelines for
Developing ADP Security Plans in SCOAP Facilities.



USDA/OIG-A/03099-47-KC                                                                                            Page 2
          over incompatible tasks. Additionally, scans were performed of 121
          selected network components to assess their vulnerability to attack. At
          each field site, we observed physical security to determine if hardware and
          computer supplies were protected from theft, destruction, or compromise.
          We tested logical security to determine if system access was limited to
          authorized users. Password rules were reviewed and compared to best
          practice policies. We checked computer files to determine if users had
          been accessing prohibited websites. Backup tape logs were reviewed
          where available. Security plans, risk assessments, and contingency plans
          were reviewed to determine if they were adequate and up-to-date. We
          also evaluated the procedures in place to prevent and/or detect
          unauthorized intrusions.




USDA/OIG-A/03099-47-KC                                                       Page 3
           FINDINGS AND RECOMMENDATIONS



CHAPTER 1        ACCESS CONTROLS NEED IMPROVEMENT


          Our reviews disclosed that FSA did not have controls adequate to ensure
          that LAN/WAN access was limited to authorized individuals and/or for
          authorized purposes. We also found weaknesses in logical security that
          would render FSA systems more vulnerable to penetration. We found
          weaknesses in physical security that rendered FSA IT resources more
          vulnerable to loss, theft, or misuse. The belief by local management that
          the current technology was secure has helped create an environment
          where IT security receives a low priority.

          Access controls should provide reasonable assurance that computer
          resources (data files, application programs, computer related facilities, and
          equipment) are protected against unauthorized modification, disclosure,
          loss, or impairment. Access controls are composed of logical and physical
          controls. Logical access controls involve the use of computer hardware
          and software to prevent or detect unauthorized access by requiring users
          to input user ID’s, passwords, or other identifiers that are linked to
          predetermined access privileges. When telecommunications are involved,
          specialized software and hardware is available to limit access by outside
          systems or individuals. These include firewalls, teleprocessing monitors,
          communications port protection devices, and smart cards. Logical
          controls should be designed to restrict legitimate users to the specific
          systems, programs, and files that they need, and prevent others from
          accessing any computer resources. Additionally, logical controls should
          be used to produce and analyze audit trails of system and user activity
          and take defensive measures against intrusion. Physical access control
          involves restricting access to computer resources, usually by limiting
          access to the buildings and rooms where the resources are housed, or by
          installing physical locks on workstations. Physical controls also pertain to
          the storage and withdrawal of tapes or other storage media to and from
          the library or offsite storage.




USDA/OIG-A/03099-47-KC                                                         Page 4
                                       Our scans of FSA computer networks
        FINDING NO. 1                  disclosed numerous weaknesses. As a result,
                                       FSA computer networks were more vulnerable
     NETWORK SECURITY                  to outside attack. FSA personnel agreed with
   ASSESSMENTS REVEALED                these findings and are actively working to
      VULNERABILITIES                  correct the problems noted.

          As part of our audit, we scanned 121 computer network components at
          the FSA Headquarters in Washington, D.C., in Kansas City, Missouri, and
          two field sites. For these assessments, we utilized an off-the-shelf
          software product which is designed to identify vulnerabilities associated
          with various information technology platforms. The software performs
          over 800 tests for security vulnerabilities that use Transmission Control
          Protocol/Internet Protocol (TCP/IP).

          The scan reports disclosed a total of 1,216 vulnerabilities: 40 high-risk,
          212 medium-risk, and 964 low-risk. High-risk vulnerabilities are those that
          provide access to the computer and, possibly, the computer network.
          Medium-risk vulnerabilities are those that provide access to sensitive
          network data that may lead to the exploitation of higher risk vulnerabilities.
          Low-risk vulnerabilities are those that provide access to network data that
          might be sensitive but is less likely to lead to a higher risk exploit.

          High-risk vulnerabilities included: (a) a weakness in a program used to
          send electronic mail that could be used to execute commands on the
          system; (b) a protocol used to manage network hardware was configured
          with default settings, and (c) one file transfer protocol that could prevent
          legitimate users from accessing files and another that could allow an
          attacker to execute programs as the systems administrator. At one
          location we found a high-risk vulnerability that would allow anyone the
          ability to change the host’s system information.            We found one
          vulnerability that was rated as low-risk but is included due to the large
          volume of occurrence on one system. This system contained 583
          accounts that had never logged onto the system; 167 of which had
          passwords that were set to never expire.

          We also conducted a detailed assessment of the security of the Novell
          network at Kansas City, Missouri. Our assessment software allowed us to
          compare FSA’s established security practices to the actual settings on the
          Novell systems. We also compared the system’s security settings to the
          software product’s “best-practices settings,” which are based on standard
          practices from a wide variety of government and private institutions. The
          software product reports weaknesses that may leave the system open to
          potential threats in the following areas: (1) account restrictions,



USDA/OIG-A/03099-47-KC                                                          Page 5
                    (2) password strength, (3) access control, (4) system monitoring, (5) data
                    integrity, and (6) data confidentiality.

                    Our assessments disclosed significant weaknesses in account restrictions
                    and access controls (the areas that define a user’s ability to access the
                    system). Some weaknesses we found included:

                    •   80 percent of containers (groups of network resources, such as users,
                        printers, and/or servers that are divided along organizational or
                        technical lines) do not have intruder detection turned on. The NetWare
                        Intruder Detection feature limits the number of failed logon attempts a
                        user can make. After a predefined number of failed logon attempts,
                        NetWare assumes the user is an unauthorized intruder, adds an audit
                        record to the system error log, and disables the account.

                    •   271 user accounts are hidden from the system administrator. This
                        raises concern because hidden accounts are often used as a means to
                        set up a “back door” to the server. These accounts hold administrator
                        access privileges, privileges for most trusted users on a Novell system,
                        which allow complete control of the system. Additionally, because of
                        these privileges, unauthorized users can modify system logs to hide
                        their activities from the system administrator.

                    •   22 percent of user accounts are inactive. User accounts that become
                        inactive, but not disabled, provide opportunities for unauthorized users
                        to gain access to the network. An attacker can try different passwords
                        on these inactive accounts and attempt to gain access to the network.
                        Once that access is gained, unauthorized activity cannot be traced to
                        the responsible person.

                    The detailed results were shared with the responsible FSA personnel upon
                    completion of the scans and they corrected all of the high and medium-risk
                    vulnerabilities. The summary results of the TCP/IP scans were provided
                    to FSA in Management Alert Nos. 03099-47-KC (1)3 and 03099-47-KC
                    (2)4. FSA responded positively to the Management Alerts and has almost
                    completed the recommended corrective actions.

                    OMB Circular A-130, Appendix III, states that agencies shall implement
                    and maintain a program to assure that adequate security is provided for all
                    agency information collected, processed, transmitted, stored, or
                    disseminated in general support systems and major applications.


3
    November 22, 2000
4
    January 05, 2001



USDA/OIG-A/03099-47-KC                                                                  Page 6
                                       Take immediate action to eliminate the high
  RECOMMENDATION NO. 1                 and medium vulnerabilities identified by the
                                       scan reports.

           FSA Response

           FSA stated that they concurred with the recommendation, and had
           completed corrective action on all of the high and medium-risk
           vulnerabilities, as well as the majority of the low-risk vulnerabilities.

           OIG Position

           We concur with the management decision.

                                Implement a policy to perform scans on a
  RECOMMENDATION NO. 2          regular basis and mitigate all weaknesses.
                                Implement a policy of minimum security
                                setting guidelines for Novell systems.
        Periodically assess the guidelines and determine if they remain
        appropriate.

           FSA Response

           FSA stated that they concurred with the recommendation and, effective
           March 1, 2001, had initiated a security policy to perform scans every 3
           months and would scan monthly per a new Departmental policy. Follow-
           up scans are initiated once the weaknesses have been corrected. In
           addition, new servers are scanned as they are brought online to identify
           potential weaknesses.

           OIG Position

           We concur with proposed actions, but are unable to achieve management
           decision for this recommendation until we are informed whether FSA
           intends to periodically assess the guidelines and determine if they are still
           appropriate.

                                       Immediately remove unnecessary accounts
  RECOMMENDATION NO. 3                 from the networks and implement a system of
                                       controls that prevents the creation and
                                       retention of unnecessary accounts.




USDA/OIG-A/03099-47-KC                                                          Page 7
                       FSA Response

                       FSA stated that they concurred with the recommendation and the FSA
                       security staff has reviewed the agency’s clearance process for departing
                       employees to ensure it is completed in a timely manner.            LAN
                       administrators are responsible for automatically suspending user
                       identification codes that have been inactive for 30 calendar days.
                       Additionally, FSA developed additional procedures, Inactive User
                       Procedures, as a backup to assure unauthorized users are deleted from
                       the networks. Reviews are made for inactive Novell users and used user
                       accounts are disabled and later removed if they remain unused.

                       OIG Position

                       We concur with the management decision.

                                        Our review disclosed that FSA personnel were
          FINDING NO. 2                 not always making effective use of logical
                                        controls. The personnel tasked with systems
     LOGICAL CONTROLS DID NOT           administration generally did not understand
     ENSURE RESTRICTED SYSTEM           that serious problems regarding logical access
               USAGE                    controls could evolve from inadequately
                                        monitored systems usage. As a result, FSA
             managers cannot be sure that systems usage is restricted to legitimate
             users and authorized purposes and system users are not reducing the
             effectiveness of more sophisticated security measures.

                       We also noted that, despite DR’s5 and Departmental high-level assurance
                       to the contrary, a majority of FSA employees had the ability to access
                       inappropriate websites. During the initial phases of this audit, OIG was
                       informed that the USDA firewall policy was to prohibit the entry of certain
                       specific traffic (pornography and gambling sites). However, our work at
                       the State and county offices disclosed that the firewall did not prevent the
                       entry of either type of prohibited website traffic. FSA State and county
                       offices account for the majority of their personnel.

                       For example, we found one location where an outside contractor
                       employee had made unauthorized use of FSA computer resources after
                       normal business hours. The contractor employee used the site’s only
                       computer with an older operating system to access the Internet and visited
                       some sites deemed inappropriate by the Department. This usage went
                       undetected by the security personnel until our audit step, designed to
                       check Internet usage, revealed some questionable sites. With the
5
    DR 3300-1, Part 3, Special Instructions, Appendix I, Part 5, Policy.



USDA/OIG-A/03099-47-KC                                                                     Page 8
                     assistance of the onsite security personnel, we were able to determine the
                     sites visited by the contractor. The personnel stated that the contractor
                     was licensed and bonded and they thought it safe to leave them
                     unattended. Although our work did not reveal any other improper usage
                     by the contractor, we could not be completely sure of the full extent of the
                     computer usage or what other systems the contractor might have
                     attempted to access. We immediately referred the unauthorized usage to
                     the Agency for resolution.

                     DR 3140-2 states that USDA sponsored Internet connections are to be
                     used for official USDA business. USDA personnel and contractors must
                     not download from the Internet any pornography and must not use the
                     Internet for private or personal business. Although updated policy allows
                     for limited personal use of Agency systems, personnel are still restricted
                     from accessing certain websites including those that provide pornography.

                     We found another location where FSA personnel were sharing ID’s and
                     passwords between employees and guests (visiting FSA personnel). The
                     systems administrator stated that when a guest came to the office, and
                     needed system access, one of the employees would log on and allow the
                     guest to work under the employee’s ID. This policy lessens accountability
                     and control. We also found three field locations where active logon ID’s
                     existed for inactive personnel or could not be identified with a legitimate
                     system user. In one case, we found an ID for an employee that had been
                     separated for over 1 year. In another location, we found an ID having
                     systems administrator capabilities. The systems administrator, although
                     aware of the existence of this ID, did not know the identity of the user and
                     was unsure how this ID had been placed on the system. Additionally, we
                     found that at least two locations allowed infinite logon attempts without
                     disabling the workstation. At the Washington, D.C., and Kansas City
                     locations, we found 20 active LAN ID’s for separated employees.

                     We also found that at one State office, three active employees did not
                     have access authorization forms on file. At the corresponding county
                     office, we found access authorization forms for only two of ten current
                     employees6. At the other State office, we found access authorization
                     forms for less than half of the active employees. This State office had a
                     policy of not requiring access authorization forms for employees that had
                     AS/400 workstation access without access to FSA mainframe computers
                     or the Internet. The corresponding county office did not have forms for
                     any of the employees and the responsible official was unfamiliar with the
                     form.

6
    These personnel were previously employed by the former Farmers Home Administration.



USDA/OIG-A/03099-47-KC                                                                    Page 9
            DM 3140-1 states that all ADP users are responsible for protecting ADP
            assets and data from theft, fraud, misuse, loss, or unauthorized
            modification. Users are to protect telephone numbers, passwords, and all
            other system access keys against unauthorized disclosure. When
            granting access to others, owners should limit the type and duration of
            access to the minimum necessary. Appendix D provides significant
            detailed instructions on the use of ID’s and passwords.

                                    Issue an IRM Notice to all FSA employees
  RECOMMENDATION NO. 4              reminding them of their responsibilities to
                                    protect sensitive program data. The Notice
                                    should emphasize how the sharing of
        passwords and failure to protect sensitive data can have an adverse
        impact on USDA programs and personnel. The Notice should also require
        each systems administrator to review the list of current user ID’s, reconcile
        this to active employees, and delete user ID’s for any inactive employees.
        Additionally, the Notice should remind systems administrators of their
        ongoing responsibility to ensure that user ID’s are deleted as soon as an
        employee is separated from service with FSA.

            FSA Response

            FSA stated that they concurred with the recommendation and are in the
            process of developing a security handbook for all FSA personnel by the
            second quarter of 2002. FSA believed these weaknesses were limited in
            scope to specific State and county offices since the majority of its field
            offices are fully aware of their security responsibilities and are reminded
            periodically as required by the department as well as through annual
            computer security awareness training. In the meantime, they will issue an
            IRM notice to address the weaknesses identified in the finding and
            address general security “best practices.”        FSA has developed a
            comprehensive security awareness training program and is reviewing a
            web-based interactive training program for FY 2002.

            OIG Position

            We concur with the proposed action, but are unable to achieve
            management decision for this recommendation until we have received the
            timeframe for completing the proposed security notice.




USDA/OIG-A/03099-47-KC                                                        Page 10
                                       Our review disclosed that physical access to
       FINDING NO. 3                   computer servers was generally not restricted
                                       to systems administrators and access to other
 PHYSICAL CONTROLS DO NOT              computer resources, such as system
EFFECTIVELY RESTRICT ACCESS            documentation and backup media, was not
        TO SERVERS                     always    adequately    controlled.       The
                                       responsible personnel generally did not
          believe that there was a problem with their server access. As a result, the
          computer servers and related materials were subject to an increased risk
          of theft, damage, or other disruption.

            We found physical access control weaknesses with computer servers in
            Kansas City and each of the five field sites visited. In the Kansas City
            Telecommunications Division, our review of access logs identified 112
            non-Divisional personnel having access to the server room. These
            personnel included contractors, security guards, and FSA personnel from
            other divisions. Two field sites maintained their servers in locked rooms.
            However, we noted that one location did not keep the door to the room
            locked. At another field site, one server was housed in a metal and
            Plexiglas tower located in a common area. However, on the day we made
            our review of physical security, the tower was unlocked. This was
            attributed to a contractor working in the area. Another server at this site
            was contained in a locked room. However, on the day we performed our
            review, contractors were working on rewiring the building alarm system
            and the locking doors to the server room were left open for most of the
            day. This second site poses an additional challenge to physical security,
            because of its open design within a shared facility, where non-Agency
            employees have the potential to access FSA workstations.

            In two other locations, we noted that the servers were contained in private
            rooms. However, the doors to these rooms did not have locks and were
            left open most of the time. In the fifth location, the server was left on a
            table in an open area. It should be noted that at one time this facility had
            a separate computer room with security and climate controls. However, a
            wall was removed resulting in lessened security. Additionally, we found at
            least two sites where not all personnel were using available keyboard-
            locking features to secure workstations when they were away from their
            desks.

            DM 3140-1 states that ADP equipment should be located out of highly
            visible, heavily trafficked areas. Where possible, ADP activities should be
            shielded from casual observation. The facilities should be locked when
            not in use and data should be stored in locked rooms or cabinets.




USDA/OIG-A/03099-47-KC                                                         Page 11
                                  Keep servers and related materials within
  RECOMMENDATION NO. 5            secured environments and limit access to
                                  systems administrators and their alternates. If
                                  access is required by others, adequate
        monitoring should be provided. Ensure that available keyboard-locking
        features are utilized.

            FSA Response

            FSA stated that they concurred with the recommendation and stated that
            its Washington and Kansas City Headquarters network and
            telecommunication offices are fully secured and access is restricted
            according to USDA policy. Recently, the Office of Chief Information
            Officer (OCIO), Cyber Security Office, performed an onsite physical
            security assessment in Kansas City and made additional
            recommendations that FSA will address as funding is made available.
            With the implementation of the Common Computing Environment project,
            servers and LAN\WAN\Voice hardware will be stored and locked in
            specified security rooms. Additionally, forced screen savers and timeouts
            for users are being implemented on the Common Computing Environment
            platform.

            OIG Position

            We concur with the proposed actions, but cannot reach management
            decisions until a timeframe for accomplishing these planned actions is
            provided.

                                       Our review disclosed one instance where FSA
        FINDING NO. 4                  could have taken additional actions when
                                       dealing with improper use of IT resources.
     INTERNET ACCESS NOT               Current procedure allows an employee to
       SUSPENDED DURING                retain Internet access while disciplinary
     DISCIPLINARY ACTIONS              actions are being processed. As a result,
                                       there is increased vulnerability to additional
            improper usage.

            During our review, we were informed by FSA management of one
            employee that had been disciplined for improper usage of IT resources.
            Through discussion with other employees, we concluded that others in the
            Division were aware of this employee’s acts. Follow-up with the Kansas
            City security staff disclosed that this employee continued to make
            improper usage of IT resources, even after the previous disciplinary
            action.



USDA/OIG-A/03099-47-KC                                                      Page 12
          We also learned that the security staff did not restrict this employee’s
          Internet access after subsequent improper acts. They forwarded their
          reports to the FSA personnel staff for action. However, the employee
          continued the improper usage during this time, as evidenced by Internet
          usage reports.

                                      Institute a procedure that allows the security
  RECOMMENDATION NO. 6                staff to immediately report inappropriate
                                      systems usage to the responsible managers.

          FSA Response

          FSA responded that it cannot implement this recommendation at this time.
          Only the FSA Kansas City and St. Louis offices have a proxy server in
          place that requires employees to sign-on to the Internet using a user ID
          and password so we can track and block access. This function is not
          available in Washington, DC, State offices, nor our field office Service
          Centers.

          FSA also responded that they follow a personnel process for Kansas City
          employees that involves the offending employee’s immediate supervisor, a
          Personnel Relations Specialist, and a Security Office staff member. Once
          it has been determined that the charges against an employee have been
          substantiated and proved, Human Resources has the ability to notify the
          Security Office to suspend the Internet access of the employee for a
          specific period of time, if warranted, along with harsher penalties including
          suspension and removal. FSA does not consider this an issue within the
          Kansas City Office.

          Suspending employees’ Internet access in the field and Washington
          offices is a more complex technical issue. Washington, the field office
          Service Centers, and State offices are not configured to control access to
          the Internet through a central proxy server where access could be
          centrally managed, and there are no plans at this time for the Common
          Computing Environment to move in that direction. All of the vulnerabilities
          in the OIG audit were directed to specific field office sites where access is
          not being monitored. To shut off Internet access would require removing
          the web browser connection from the workstation.

          Access for field office Service Centers would have to be managed at the
          OCIO firewall for this type of solution to be implemented, which is not in
          our control. OCIO is aware of this problem and is looking at providing
          some type of access monitoring tools at the OCIO device stack in the next



USDA/OIG-A/03099-47-KC                                                        Page 13
          FY. Therefore, FSA cannot comply with this recommendation at this time,
          but will continue to make sure that FSA employees are made aware this is
          an offense that will not be tolerated.

          OIG Position

          In order for us to achieve management decision for this recommendation,
          we need to know what alternative actions FSA intends to take to ensure
          improper use of IT resources are not repeated by identified employees.




USDA/OIG-A/03099-47-KC                                                   Page 14
CHAPTER 2         GENERAL CONTROLS COULD BE MORE EFFECTIVE


           Our audit disclosed that FSA management had not always ensured the
           timely completion of required system reviews. A lack of resources had
           caused the completion of certain reviews to slip. Additionally, some of the
           reviews that had been completed did not contain all required information.
           As a result, there was additional risk of system problems going undetected
           by responsible officials.

           An entity-wide program for security planning and management is the
           foundation of an entity’s security control structure. The program should
           establish a framework and continuing cycle of activity for assessing risk,
           developing and implementing effective security procedures, and
           monitoring the effectiveness of these procedures. The Computer Security
           Act of 1987 required agencies to identify and protect systems containing
           “sensitive” information and called for security training. OMB Circular A-
           130 established a minimum set of controls including; assigning
           responsibilities for security, security planning, periodic review of security
           controls, and management authorization of systems to process
           information.

                                   Our review of the security plans and
       FINDING NO. 5               associated risk assessments for seven
                                   sensitive systems disclosed that four risk
 REQUIRED RISK ASSESSMENTS         assessments were outdated. This condition
    WERE NOT PERFORMED             was attributed to a lack of personnel. As a
                                   result, there was an increased potential that
          risks associated with system changes would not be identified and
          evaluated.

           Our review of four sensitive systems security plans in Kansas City
           disclosed that none of the four referred to risk assessment nor did they
           otherwise identify any risk categories or levels of risk. Our discussion with
           the appropriate officials disclosed that a risk assessment had been
           performed in the past but it was now more than 3 years old and
           considered to be obsolete.

           DM 3140-1 states that each agency will submit a security plan or an
           annual update to an existing plan annually. A security assessment should
           be conducted annually at each ADP processing site. The associated risk



USDA/OIG-A/03099-47-KC                                                         Page 15
          assessment must be completed at intervals of 3 years or when hardware
          or system software undergo significant modification.

                                      Complete the risk assessment as soon as
  RECOMMENDATION NO. 7                possible and implement a system of controls
                                      to ensure that risk assessments are
                                      completed on a yearly basis or as system
          changes demand.

          FSA Response

          FSA concurred with the recommendation, and stated that the Security
          Office has prioritized the sensitive system applications FSA supports and
          maintains and will perform risk assessments on the 12 major sensitive
          systems for FY 2001. FSA has procured a software risk assessment
          package (Cobra) to assist it in performing these risk assessments.
          Funding has been included in the FY 2002 and 2003 to address additional
          risk assessments for the remaining systems.

          OIG Position

          We concur with the FSA proposal and can achieve management decision
          when informed of the timeframe for completion of the risk assessments for
          the remaining systems.

                                      Our review of the security plans for seven
        FINDING NO. 6                 sensitive systems disclosed that three of the
                                      plans did not document a clearly established
SECURITY RESPONSIBILITIES NOT         security management structure. As a result,
    CLEARLY ESTABLISHED               we concluded that there is additional risk of
                                      system problems going undetected.

          Our review of the security plan for one assessment accounting system,
          maintained in FSA Headquarters, disclosed that security responsibilities
          had been assigned to end-users rather than a responsible security official.
          Security plans for a commodity procurement system, Electronic Bid Entry,
          and a communication system, Telecommunications Software, did not
          include a security management structure. Without a documented security
          management structure there is less assurance that Agency security
          policies and procedures are being implemented and maintained.

          The OMB states that responsibility for each major application should be
          assigned to a management official knowledgeable in the nature of the




USDA/OIG-A/03099-47-KC                                                      Page 16
                      information and process supported by the application7. This official should
                      assure that effective security is used in the application and should be
                      contacted in case of a security incident.

                                                              Issue an IRM Notice requiring the owners of
      RECOMMENDATION NO. 8                                    all sensitive systems to ensure that the next
                                                              update of their security plan includes a
                                                              documented security management structure.

                      FSA Response

                      FSA stated that they disagreed with the recommendation, but agreed with
                      the need. They further stated that the OCIO had requested a new
                      structured format for the 2001 annual system security plans which
                      addresses the security management structure. FSA completed 113 major
                      support security plans following the new format and the remaining
                      applications will be addressed in this new format for FY 2002. FSA will
                      continue to review all plans annually to assure this information is included
                      in the security plans. FSA will also address this in its security handbook.

                      OIG Position

                      We accept the management decision.




7
    OMB Circular A-130 Appendix III, Security of Federal Automated Information Resources, Part A.3.b



USDA/OIG-A/03099-47-KC                                                                                 Page 17
CHAPTER 3                      INADEQUATE SEGREGATION OF DUTIES NOT
                               COMPENSATED FOR BY SUPERVISORY REVIEW


                                                  Our review disclosed that not all field locations
                 FINDING NO. 7                    had adequate separation of duties due to
                                                  staffing restrictions. We further noted that
                                                  supervisory review did not compensate for the
                                                  lack of segregation of duties. As a result, FSA
                    is exposing itself to additional risk of error or wrongful acts.

                     We found two locations where, primarily, one individual performed the
                     office automation duties and responsibilities. No other personnel at these
                     sites were tasked with oversight of the office automation function. The
                     lack of segregation of duties and lack of oversight increases the potential
                     that error or wrongful acts will occur and go undetected. One FSA
                     function with the potential for oversight was the County Office Review
                     Program (CORP) which performs periodic reviews of FSA county
                     operations and targets reviews of individual program areas.

                     We reviewed the CORP report of common findings for 19998. Section 6 of
                     the Report stated that, out of 66 reports issued, only one common IT
                     related finding was reported. The form FSA-765, Backup Log, was not
                     being updated each time a backup was created. We also reviewed the
                     CORP Handbook, Exhibit 7 (ADP Operations) to determine the nature of
                     the CORP review. Because FSA had been using the IBM System 36 for
                     automation, the review items were geared toward the System 36
                     environment and emphasized documentation and systems backup. The
                     review guide did not contain any items geared, specifically, towards
                     personal computer, LAN, or Internet usage. Based upon our review of
                     these documents, we concluded that there were not sufficient
                     compensating controls to ensure adequate security over smaller
                     operations.

                     DM 3140-1, Appendix 6, Small Systems Security, provides some
                     guidelines for offices where segregation of duties is not always possible.
                     These guidelines include cross training of employees, monitoring of
                     telecommunications and the reporting of any anomalies to management.



8
    FSA Notice COR-92, dated April 4, 2000.



USDA/OIG-A/03099-47-KC                                                                    Page 18
            Work responsibilities should be segregated so that one individual does not
            control all critical stages of a process. Dividing duties among two or more
            individuals or groups diminishes the likelihood that errors or wrongful acts
            will go undetected because the activities of one will serve as a check on
            the other. The extent to which duties are segregated depends on the size
            of the organization and the risk associated with its activities. A large
            organization will have more flexibility in separating key duties. Smaller
            organizations may rely more on supervisory review to control activities.

                                      In conjunction with the implementation of
  RECOMMENDATION NO. 9                upgraded field level servicing capabilities,
                                      develop a set of guidelines for providing
                                      supervisory review in offices where there is
        limited ability for segregation of duties.

            FSA Response

            FSA concurred with the recommendation and stated that they would
            address these concerns in their co-located Service Center sites as
            required in the Common Computing Environment project and where
            staffing allowed for it to be accomplished.

            OIG Position

            In order to achieve the management decision for this recommendation, we
            need to be provided a timeframe for completing a set of guidelines for
            providing supervisory reviews in offices where there are limited abilities to
            provide for segregation of duties.




USDA/OIG-A/03099-47-KC                                                          Page 19
CHAPTER 4         DISASTER RECOVERY PLANS WERE NOT CURRENT


                                         Our review disclosed that the field offices had
        FINDING NO. 8                    not always updated and/or tested their
                                         disaster recovery plans.     Additionally, we
                                         found one site was not following the
                                         recommended procedure for offsite storage of
           system backups. Generally, field office personnel treated the update as
           more of a routine task to be performed on an annual basis rather than an
           opportunity to improve security. As a result, these field offices are
           increasing the potential for loss caused by a business interruption.

           We found that one State used a disaster recovery plan that included some
           narrative detailing recovery methods. However, this plan has not been
           tested during the 3-year tenure of the current automation coordinator. The
           county office had not updated the security plan to reflect a change in the
           name of the offsite storage location. Additionally, we found that this State
           office was not following the recommended procedures for the offsite
           storage of system backups. Due to staffing shortages, the system
           backups were not being transported to the offsite storage facility at the
           recommended intervals.

           Another State used a checklist, that did not include narrative, for the
           disaster recovery plan, which we found had not been tested for the last 2
           years. The county office had a plan that had not been updated since
           1997. We found that this office had received instructions that it only
           needed to update the plan if changes had occurred.

           DM 3140-1 states that agencies should develop contingency plans to
           meet emergencies and ensure that the plans cover all critical processing.
           The plans should be reviewed annually and tested no less than annually.
           DM 3140-1 further states that offsite storage should be provided for
           information that is critical to program operations, that would be difficult to
           reconstitute, or that is required by law or custom to be current.

           Losing the capability to process, retrieve, and protect information
           maintained electronically can significantly affect an agency’s ability to
           accomplish its mission. For this reason, an agency should have (1)
           procedures in place to protect information resources and minimize the risk
           of unplanned interruptions, and (2) a plan to recover critical operations,
           should interruptions occur. These plans should consider the activities


USDA/OIG-A/03099-47-KC                                                          Page 20
           performed at general support facilities, such as data processing centers
           and telecommunications facilities, as well as the activities performed by
           users of specific applications. To determine whether recovery plans will
           work as intended, they should be tested periodically in disaster simulation
           exercises. In addition, all staff with service continuity responsibilities, such
           as backing up files, should be fully aware of the risks of not fulfilling these
           duties.

           Although often referred to as disaster recovery plans these controls should
           address the entire range of potential disruptions to ensure service
           continuity.    When controls are inadequate, even relatively minor
           interruptions can result in lost or incorrectly processed data: Which can
           cause financial loss, expensive recovery efforts, and inaccurate or
           incomplete financial management information.

           Additionally, we reviewed FSA’s Federal Managers’ Financial Integrity Act
           annual report for FY 2000 and determined that they had not reported any
           material weaknesses in internal controls in the IT area.

                                        Require those locations cited in this report to
 RECOMMENDATION NO. 10                  immediately update and/or test their
                                        contingency plans in accordance with existing
                                        policy.
           FSA Response

           FSA stated that it concurred with the recommendation and an IRM Notice
           would be developed addressing contingency plans and will require the
           plans to be submitted to FSA Kansas City to assure compliance.

           OIG Position

           We concur with the proposed actions and can achieve management
           decision upon receipt of the proposed timeframe for completing the
           contingency plans.

                                  Issue an IRM Notice requiring FSA State and
 RECOMMENDATION NO. 11            county offices to update their contingency
                                  plans when any significant event occurred that
                                  affects the contingency plan, but not less than
       annually. This Notice should also remind personnel of the importance of
       regularly scheduled transport of backups to the offsite storage facility.




USDA/OIG-A/03099-47-KC                                                           Page 21
           FSA Response

           FSA concurred with the recommendation and stated that this area would
           be addressed in the security handbook that is being developed as well as
           an IRM Notice this FY to address these specific weaknesses.

           OIG Position

           We concur with the proposed actions and can achieve management
           decision upon receipt of the specific timeframe(s) for completing the
           security handbook and IRM Notice.

                                   Make an Agency-level determination whether
 RECOMMENDATION NO. 12             the conditions in this report represent a
                                   material internal control weakness and should
                                   be reported in the Agency’s upcoming Federal
       Managers Financial Integrity Act report.

           FSA Response

           FSA concurred with the recommendation and stated that they would
           forward and discuss the audit findings with the Chief Financial Officer
           (CFO) and assess the impact on the Federal Managers Financial Integrity
           Act report.

           OIG Position

           We concur with the proposed action and can achieve management
           decision when informed of the timeframe for accomplishing the FSA/CFO
           decision.




USDA/OIG-A/03099-47-KC                                                      Page 22
                      GENERAL COMMENTS

          1. Filing of IT Security Training Certificates.

          We noted that the method established for tracking the delivery of
          computer security awareness training could be improved. Our review of
          76 randomly sampled Kansas City employees, from a population of 1,161,
          disclosed that 20 did not have IT Security Awareness Training Certificates
          on file.




USDA/OIG-A/03099-47-KC                                                     Page 23
EXHIBIT A – AUDITEE RESPONSE TO DRAFT REPORT




USDA/OIG-A/03099-47-KC                         Page 24
USDA/OIG-A/03099-47-KC   Page 25
USDA/OIG-A/03099-47-KC   Page 26
USDA/OIG-A/03099-47-KC   Page 27
USDA/OIG-A/03099-47-KC   Page 28
USDA/OIG-A/03099-47-KC   Page 29
USDA/OIG-A/03099-47-KC   Page 30
USDA/OIG-A/03099-47-KC   Page 31
USDA/OIG-A/03099-47-KC   Page 32
                                ABBREVIATIONS

ADP - Automatic Data Processing

CCC - Commodity Credit Corporation

CFO – Chief Financial Officer

CO - County Office

CORP - County Office Review Program

DM - Departmental Manual

DR - Departmental Regulations

FSA - Farm Service Agency

FY - Fiscal Year

ID - Identification Number

IRM - Information Resource Management

IT - Information Technology

LAN - Local Area Network

OCIO - Office of the Chief Information Officer

OMB - Office of Management and Budget

SO - State Office

TCP/IP - Transmission Control Protocol/Internet Protocol

USDA - United States Department of Agriculture

WAN - Wide Area Network




USDA/OIG-A/03099-47-KC                                     Page 33
